OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/SIERRA LEONE’S
AGRICULTURAL ACTIVITIES

AUDIT REPORT NO. 7-636-12-003-P
DECEMBER 20, 2011




DAKAR, SENEGAL
Office of Inspector General


December 20, 2011

MEMORANDUM

TO:       	          USAID/Sierra Leone Mission Director, Nancy Estes

FROM: 	              Acting Regional Inspector General/Dakar, Benjamin Owusu /s/

SUBJECT:	            Audit of USAID/Sierra Leone’s Agricultural Activities
                     (Report No. 7-636-12-003-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included the comments in their entirety
in Appendix II.

The report includes 14 recommendations. On the basis of actions taken by the mission and
supporting documentation provided, management decisions have been reached on
Recommendations 1, 2, and 5–14. Please provide the Audit Performance and Compliance
Division in the USAID Office of the Chief Financial Officer with the necessary documentation to
achieve final action.

After reviewing management’s comments, we determined that Recommendations 3 and 4
remain without management decisions. We ask that you provide us written notice within 30
days of actions planned or taken to implement Recommendations 3 and 4.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     Program Performance Data Could Not Be Verified, and 

     Impact Could Not Be Measured .............................................................................................. 4 


     Partner Incurred Unreasonable Expenses and

     Exceeded Line-Item Budgets .................................................................................................. 6


     Partner Did Not Comply With Cost-Sharing or 

     Other Award Requirements................................................................................................... 11 


     Program Did Not Comply With Environmental Regulations .................................................. 13 


Appendix I—Scope and Methodology .................................................................................... 15 


Appendix II—Management Comments ................................................................................... 17 





Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOTR            agreement officer’s technical representative
ARD             Associates in Rural Development
CAADP           Comprehensive Africa Agriculture Development Programme
FY              fiscal year
GPS             global positioning system
IEE             Initial Environmental Examination
M&E             monitoring and evaluation
SUMMARY OF RESULTS 

Sierra Leone ranked 158th out of 169 countries on the United Nations Human Development
Index for 2010, which measures a country’s development based on life expectancy, educational
attainment, and income. The United Nations further reports that life expectancy in Sierra Leone
is 48 years, and the child mortality rate is 194 out of 1,000 births (seventh highest in the world in
2008). Sixty percent of the nation’s population of 5.84 million depends on farming for its
livelihood, making agriculture a critical component of Sierra Leone’s economy.1 In hopes of
building this sector to address the humanitarian challenges described above, the Government of
Sierra Leone signed a country compact under the Comprehensive Africa Agriculture
Development Programme (CAADP)2 focusing on the commercialization of agriculture.

In line with compact goals, USAID/Sierra Leone designed the Promoting Agriculture,
Governance, and the Environment Program. A consortium led by ACDI/VOCA and including
World Vision and Associates in Rural Development (ARD) started implementing the program in
July 2008 under a 4-year, $13.2 million cooperative agreement with USAID. The objective was
to increase household incomes by supporting producers’ organizations and marketing
associations through a market-driven, value chain-based approach. As the name suggests, the
program has three components: the agricultural component (managed by World Vision), a
governance component (managed by ARD), and a natural resource management component
(managed by ARD). The partner and subpartners implement the program in four districts in
Sierra Leone. As of October 25, 2011, USAID/Sierra Leone had obligated $13.2 million and
disbursed $10.2 million for the program.

The objective of the audit was to determine whether USAID/Sierra Leone’s program was on
track to achieve its main goals related to building the capacities of targeted farmer, producer,
agribusiness, and marketing associations.

The audit team found that, although the program had a significant positive effect on the
beneficiaries visited and appeared to be on track to meet its main goals, it faced significant
challenges in the remaining year of implementation that may hinder its ability to achieve its
program goals. Specifically, the audit found that weak internal controls and a lack of budget
control and management by the prime implementing partner, ACDI/VOCA, led to budget
overruns on ten separate line items totaling $794,664 (as of September 30, 2011), leaving only
2.5 percent remaining in its share of the program budget for the last year of
implementation. The overall program budget had 23.5 percent of its funds remaining, but most
of the remaining funds belonged to the subpartners. With less than 1 year remaining for
program implementation at the time of the audit, it will be critical for the mission to address
these budget problems.




1
  Food and Agriculture Organization of the United Nations, “Sierra Leone Country Page,” July 27, 2011.
2
  CAADP is an initiative of the African Union’s New Partnership for Africa’s Development. According to its
Web site, “CAADP’s goal is to eliminate hunger and reduce poverty through agriculture. To do this,
African governments have signed compacts agreeing to increase public investment in agriculture by a
minimum of 10 percent of their national budgets and to raise agricultural productivity by at least 6 percent”
(http://www.nepad-caadp.net/about-caadp.php).

                                                                                                           1
Furthermore, the audit team was not able to verify the results reported by the program or to
reach a conclusion on the program’s overall impact. The program did not provide supporting
documentation for two of the four main indicators and based the results for the other two
indicators largely on estimates, making it difficult to verify actual results achieved. More
seriously, the mission was not able to measure the program’s impact on the overarching goal of
increasing household income in targeted areas. The program was required to conduct baseline,
midterm, and final surveys to determine program progress on increasing household income.
However, because the program had a slow start, the baseline survey was late and did not
measure household incomes, and the program will not complete the midterm survey.

As previously noted, the program had a positive impact on the beneficiaries the audit team met.
All of the agricultural training recipients interviewed reported that increased yields had helped
them move from subsistence agriculture to farming as a business. The audit team also met with
representatives of marketing associations that had united hundreds of smallholder farmers to
combine yields and sell crops through bulk contracts to the United Nations World Food
Program. These farmers and representatives praised the program for not only teaching them
improved farming techniques, but also teaching them about business and helping empower the
women in their communities.

Nevertheless, the audit disclosed the following areas of concern:

	 Program performance data could not be verified, and impact could not be measured (page 4).

	 The partner incurred unreasonable expenses and exceeded line-item budgets (page 6).

	 The partner did not comply with cost-sharing or other award requirements (page 11).

	 The program did not comply with environmental regulations (page 13).

To resolve these problems, the Regional Inspector General/Dakar recommends that
USAID/Sierra Leone:

1. 	 Work with the partner to develop and implement a plan to measure the program’s impact on
     targeted areas by rebuilding a baseline from available data and using specific proxy
     indicators to determine the change in income levels from the onset of the program (page 5).

2. 	 Work with the partner to develop and implement a plan to verify that performance data are
     organized, supported, and verifiable (page 6).

3. 	Make a management decision on the allowability of the unapproved budget overruns of
    $794,664 and collect from the recipient any amounts determined to be unallowable (page 9).

4. 	Make a management decision on the allowability of the ineligible and unsupported
    questioned costs totaling $71,776 identified in Table 2 and collect from the recipient any
    amounts determined to be unallowable (page 10).

5. 	Work with the partner to develop and implement a plan to address the internal financial
    control weaknesses related to oversight and the segregation of duties (page 10).




                                                                                               2
6. 	Work with the partner to develop and implement a financial plan to monitor program
    expenditures against the approved program budget quarterly (page 10).

7. 	 Work with the partner to realign the work plan as a result of the budget shortage created by
     cost overruns (page 10).

8. 	 Work with the partner to develop and implement a plan to improve cooperation among the
     coalition partners in a way that more closely reflects the intent of the cooperative agreement
     (page 10).

9. 	 Work with the partner to prepare and implement a plan to verify that the cost share reported
     is documented and allowable in accordance with the terms of this agreement (page 12).

10. Modify the cooperative agreement to clarify whether the cost-sharing amount is to be
    provided in accordance with the annual schedule (page 12).

11. Work with the partner to develop and implement a plan that requires the partner to reach the
    life-of-program cost-sharing requirement by the program’s end date (page 13).

12. Work with the partner to determine and document essential activities that can be completed
    from the fiscal year (FY) 2010 work plan on a mutually agreed-upon schedule (page 13).

13. Establish and implement policies mandating compliance with environmental requirements
    for its entire portfolio and communicate these requirements to its staff and implementing
    partners in writing (page 14).

14. Require that all activity documents under the program be amended to incorporate
    appropriate language regarding environmental compliance and be approved by the
    appropriate officials (page 14).

Detailed findings appear in the following section. Appendix I contains information on the scope
and methodology. Our evaluation of management comments is included in the report after each
recommendation, and management comments are presented in their entirety in Appendix II.




                                                                                                 3
AUDIT FINDINGS 

Program Performance Data Could
Not Be Verified, and Impact Could
Not Be Measured
USAID’s Automated Directives System (ADS) 203.3.5 lists data quality standards for USAID
program data. Among other qualities, it states that data must be precise and valid. Imprecise
data could cause difficulty determining whether changes were because of USAID interventions.
The guidance further states that data should be as complete and consistent as management
needs and resources permit.

The audit team noted that data reported and audited for the four main indicators used to
measure annual program performance were incomplete or unsupported, as follows.

	 Number of hectares under improved technologies. The program attempted to use global
   positioning system (GPS) units to measure the exact number of hectares improved.
   However, program staff did not provide GPS training until late in the program. Also, shade
   cocoa farms, which represented a large portion of the improved hectares, could not be
   measured using GPS units because the GPS signal was blocked by the overhead tree
   cover. As a result, the data collected for the number of hectares were incomplete. The
   partner was able to provide samples of GPS data that contributed to the total number of
   hectares reported, but was not able to provide a complete list of the hectares reported for
   this indicator.

	 Number of organizations benefiting from U.S. assistance. The program provided a summary
   count of the totals for each category of organization (e.g., marketing associations, producer
   organizations) represented by the 341 organizations that it reported assisting in FY 2010,
   but it was not able to provide the audit team with lists of the names of the organizations that
   supported the total. This lack of data made the results difficult to verify.

	 Number of people trained. To determine the number of people trained, program officials
   multiplied the average number of people in its farmer field schools (groups of 25 to 30
   farmers that received training from the program) by the number of farmer field schools
   instead of simply totaling the number of people present at training events. Then program
   officials added this number to the total of participants from training events outside the
   activities at farmer field schools. This approach increased the risk of double counting
   training participants and also seemed to be unnecessarily based on estimates when the
   actual number of participants was available and could easily have been recorded.
   Furthermore, the program was not able to provide a list of the farmer field schools or of
   specific trainings that supported the total number of people reportedly trained (5,192).
   Therefore, the audit team was not able to verify the data reported for this indicator.

	 Number of vulnerable households receiving U.S. assistance. To determine the number of
   vulnerable households, program officials used a formula based on the number of individuals
   participating in the program. Officials determined that there were 18,487 individuals and
   that approximately 80 percent of them were heads of households. Officials therefore
   concluded that 14,790 households were receiving assistance. Then, based on the UN’s

                                                                                                4
   statistic that 74.5 percent of households in Sierra Leone live below the poverty line, program
   officials concluded that 74.5 percent of the households receiving assistance were vulnerable
   (resulting in a reported total of 11,018 households). However, while the program was able
   to provide some details as to how the total of 18,487 beneficiaries was calculated, the fact
   that the reported data were based on calculations and estimates instead of physical counts
   made it difficult to verify whether the reported number actually represented vulnerable
   households receiving U.S. assistance.

The problems with indicator data had multiple causes. Although the mission exercised thorough
monitoring of the program, including conducting periodic data quality assessments, and the
agreement officer’s technical representative (AOTR) reported that he successfully validated all
data reported for the main indicators, at the time of the audit the program did not have a
monitoring and evaluation (M&E) specialist (as discussed in a later finding). Without this
person, who had prepared the data reported to USAID, it was difficult for the program to provide
support for the reported data. Poor planning also contributed to the problems. For example, the
GPS approach for measuring hectares needed to be implemented with immediate training and a
solution for shaded cocoa plantations, but the partner failed to provide the training until
December 2010 for one program district. The partner added that this training was insufficient
and that program staff was not ready to begin collecting GPS data until it completed a second
training held in May 2010. No solution was found for the shade cocoa plantations.

In addition to the problems with the four output indicators, the program was to report on the
overall impact of agricultural component activities by measuring the increase in household
incomes. To do so, the cooperative agreement required the partner to conduct a baseline
survey within 90 days of the award and follow this with midterm and final evaluations. However,
program staff did not complete the baseline survey until November 2009—16 months after the
program’s start and one-third of the way through the 4-year implementation. Furthermore, both
the prime partner and subpartners stated that the results of the baseline survey, which cost
more than $45,000, did not provide baseline household incomes for the targeted areas, making
it inadequate as a tool to measure the program’s effect on household incomes. Beyond this,
program officials decided not to conduct a midterm survey because of the tardiness of the
baseline survey. Program officials also confirmed that a final survey would be of limited use in
measuring the change in household incomes since this was not measured in the baseline
survey, so it planned to use data from a U.N. survey and data for proxy indicators, such as
household agricultural yields, to attempt to determine program impact. As a result, the
program’s impact on household income will be difficult to measure accurately.

Incomplete or unsupported data limit USAID’s ability to determine the program’s impact.
Managers need accurate and reliable data to determine program effectiveness; without proper
data, the program’s true accomplishments and impact cannot be determined. To address these
concerns, this audit makes the following recommendations.

   Recommendation 1. We recommend that USAID/Sierra Leone work with the partner to
   develop and implement a plan to measure the program’s impact on targeted areas by
   rebuilding a baseline from available data and using specific proxy indicators to determine
   the change in income levels from the onset of the program.

Evaluation of Management Comments. USAID/Sierra Leone agreed with the recommendation
and reported that the partner will use a regional specialist to complete the task by April 1, 2012.
The mission will also engage a USAID/Guinea economist and the AOTR to oversee the
specialist’s work. A management decision has been reached on Recommendation 1.

                                                                                                 5
    Recommendation 2. We recommend that USAID/Sierra Leone work with the partner to
    develop and implement a plan to verify that performance data are organized, supported,
    and verifiable.

Evaluation of Management Comments.                    USAID/Sierra Leone agreed with the
recommendation and reported that, in addition to developing and implementing the plan, it will
request that the partner hire a full-time M&E specialist. The mission’s target date for completion
is March 1, 2012.           Accordingly, a management decision has been reached on
Recommendation 2.

Partner Incurred Unreasonable
Expenses and Exceeded Line-Item
Budgets
According to 22 CFR 226, “Administration of Assistance Awards to U.S. Non-Governmental
Organizations,” Section 226.25, “The budget plan is the financial expression of the project or
program as approved during the award process.…Recipients are required to report deviations
from budget and program plans and request prior approvals for budget and program plan
revisions in accordance with this section.” In addition, Office of Management and Budget
Circular A–122,3 “Cost Principles for Non-Profit Organizations,” provides specific guidelines for
determining whether costs are allowable and chargeable to the government under a federal
award.

Contrary to these regulations, ACDI/VOCA significantly overran multiple budget line items
without prior approval from USAID and incurred unreasonable expenses as described below.

Budget Overruns. The $13.2 million cooperative agreement provided an annual budget by line
item, which the partner was to expend in accordance with 22 CFR 226, as noted above.

However, ACDI/VOCA significantly overran the budget on ten line items without prior approval
from USAID. Table 1 presents a comparison of budgeted and actual expenditures provided by
ACDI/VOCA as of September 30, 2011. This comparison reveals budget line-item overruns
totaling $794,664.

Seven of the ten overrun line items were not in the program’s approved budget and therefore
have zero balances in the “Approved Budget” column. This mismatch was partially caused by
ACDI/VOCA’s use of an accounting structure that did not match the program’s budget, but is
also evidence that the program incurred costs that were not intended in the cooperative
agreement. For example, although the cooperative agreement’s budget does not include any
specific allowance for professional fees or office supplies and postage, program staff spent
almost $200,000 on these two items.

USAID/Sierra Leone was reportedly not aware of the budget line item overruns until a
subpartner expressed concerns to the AOTR during a field visit in March 2011 (2.5 years into
implementation). The AOTR immediately recommended a financial review of the program’s
funds, which was not conducted until August 2011 because of staff shortages and turnover in


3
 Office of Management and Budget Circular A–122, Cost Principles for Non-Profit Organizations (as revised May 10,
2004), available at 70 Fed. Reg. 51927 (August 31, 2005).

                                                                                                               6
                          Table 1. Line-Item Overruns in the Budget
                           as of September 30, 2011 (not audited)
                                              ($)

                                             Approved
                   Line Item                                  Actual            Overrun
                                              Budget
      Fringe Benefits                          472,912          539,471           66,559
      Travel                                   183,457          397,138          213,681
      Professional Fees                              0           99,930           99,930
      Equipment and Commodities                424,097          591,570          167,473
      Office Supplies and Postage                    0           89,489           89,489
      Communications                                 0          103,738          103,738
      Publications and Printing Fees                 0           35,236           35,236
      Meetings and Conferences                       0            5,655            5,655
      Staff Development and Recruitment              0            5,962            5,962
      Staff Recruitment                              0            6,941            6,941
      Total	                                 1,080,466        1,875,130          794,664
     Source: ACDI/VOCA.

USAID/Senegal and USAID/Guinea.4 Also, USAID/Guinea immediately sent a program officer
to investigate and report on the financial and implementation problems. The program officer
confirmed the difficulties, recommended recruiting an accountant to aid in the separation of
duties, and agreed with the recommendation that USAID conduct a financial review of the
program. USAID/Guinea followed this visit with two other visits from the mission director and a
senior technical officer. These visits and USAID’s financial review confirmed budget overruns
and a dysfunctional relationship between the partner and subpartners (discussed below).

The ACDI/VOCA chief of party reported that he recognized that the ACDI/VOCA budget was too
small very shortly after implementation started. Local housing and utility costs were found to be
much higher than the budgeted costs once ACDI/VOCA was on the ground in Sierra Leone.
According to the chief of party, the original budget also underestimated the costs—increasing
fuel costs and the high maintenance costs for program vehicles—associated with regularly
sending technical experts from Freetown to the program implementation sites in four of Sierra
Leone’s most remote districts. However, instead of working with USAID to resolve the budget
problem, the chief of party only discussed the budget problems with the ACDI/VOCA home
office. Following are other examples of poor budget control/management.

	 In disbursing its budgeted funds, ACDI/VOCA focused little on program activities while
   overspending significantly on administrative costs. For example, as of July 2011 (with 1
   year of implementation remaining), ACDI/VOCA had expended about 97.5 percent of its
   total funding, incurring cost overruns on ten line items related to administrative costs.
   However, it had issued only $508,433 of the $1 million program budget allocated for the
   issuance of grants to beneficiaries. Furthermore, while ACDI/VOCA was responsible for
   implementing program activities in one of the four program districts, site visits by the mission
   and a review of the program’s quarterly reports revealed that the program implementation
   was very slow and had accomplished little in the district. This record stood in stark contrast


4
  USAID/Sierra Leone is technically considered to be a “twinned mission” with USAID/Guinea. The
mission falls under the authority of the mission director based in USAID/Guinea. USAID/Guinea is also
the accounting station for USAID/Sierra Leone, but the controller is based in USAID/Senegal.

                                                                                                   7
   to that of the subpartners, which had both made notable progress in program
   implementation and still had 23.5 percent of their budgeted funds remaining.

	 According to the cooperative agreement’s program description, the M&E specialist position
   would be filled by an expatriate only during the first year of implementation. This person
   would then train a Sierra Leonean replacement, who would fill the position by the end of the
   first year to reduce costs. However, ACDI/VOCA retained the expatriate for 3 years
   because, according to the chief of party, there were no local employees capable of filling the
   position even after a year of training. When the expatriate had to resign unexpectedly for
   personal reasons in July 2011, the program was left without an M&E specialist. The
   program paid salary and benefits for the expatriate for 2 years longer than intended. In
   addition, ACDI/VOCA’s current budget predicament has prevented it from recruiting a new
   M&E specialist, subjecting program data to other risks.

	 ACDI/VOCA, the prime implementing partner, and its two subpartners (World Vision and
   ARD) did not cooperate as intended. Although the cooperative agreement clearly stated
   that World Vision would enable a rapid start-up by providing shared office space and
   resources in two districts where it was already operating, World Vision did not allow staff
   from partner organizations to share its office resources, forcing ACDI/VOCA to relocate staff
   and operate out of its own office. World Vision reported that it had not seen the original
   proposal that led to the commitment in the cooperative agreement to share office space.
   There is no mention of shared office space or resources in ACDI/VOCA’s subagreement
   with World Vision. This was just one of several conflicts among the partner and
   subpartners. USAID involvement helped resolve the most pressing issues, but the audit
   team noted that the relationship among the partners remained strained. Each partner
   continued operating in its own offices though sharing office resources would have benefited
   program implementation and reduced the cost of office rent, utilities, supplies, and travel.

Unreasonable and Unsupported Expenses. A financial review of the program conducted by
USAID in August 2011 revealed significant cost overruns as well as concerns about the validity
of some expenses. Because of these concerns, the audit team performed detailed testing on a
judgmentally selected sample of 100 disbursements made by ACDI/VOCA under the program to
determine the reasonableness of the disbursements.             Table 2 presents $71,776 of
unreasonable expenses (expenses questioned because they were either unsupported or
ineligible program costs) identified by the audit team. The questioned costs include travel
reimbursements without receipts, unreasonable amounts paid for lodging, costs charged for
lodging in hotels not approved by the program, payment of unnecessary taxes, and payments
made without official invoices. The audit team noted that, in many instances, the documentation
was unclear as to when and why the travel took place. Although ACDI/VOCA had rules in place
to govern travel reimbursements, the rules were not enforced, resulting in insufficient supporting
documentation for these reimbursements.

Poor internal controls at ACDI/VOCA contributed significantly to the budget line item overruns
and the questioned disbursements. For example, the USAID financial review noted that
ACDI/VOCA clearly did not have segregation of duties. The program chief of party was the sole
signatory on the program’s bank account and was responsible for requesting and approving all
expenditures, including those pertaining to him. Segregation of duties is critical to effective
internal control; it reduces the risk of mistakes and inappropriate actions and decreases fraud
risk by increasing oversight. Internal controls are the responsibility of management, and
ACDI/VOCA should have ensured at a minimum that these controls were designed effectively.


                                                                                                8
               Table 2. Unreasonable and Unsupported Expenses (audited)
                                          ($)

                                     Category                    Amount
                       Unsupported travel payments               14,168

                       Unapproved travel                          1,965

                       Unreasonable hotel prices                  1,587

                       Unsupported salary payments               12,908

                       Payments without official invoices        20,474

                       Consulting – Insufficient scope of work   18,102

                       Other                                      2,572

                       Total                                     71,776


Furthermore, the financial manager at ACDI/VOCA had never seen the program budget and
was therefore unable to monitor spending against budgeted line items. This allowed program
staff and the chief of party to continue to make many local disbursements without regard to the
budget.

A second factor contributing to the budget line item overruns and questioned costs was a lack of
USAID involvement due to the nature of the cooperative agreement and the configuration of
USAID/Sierra Leone’s financial management office. Under the cooperative agreement,
ACDI/VOCA’s financial reporting requirement consisted of submitting U.S. Government
standard forms 269 and 272 on a quarterly basis. These forms request only high-level
information that would not have revealed the budget overruns until very late in the program, if
ever. The AOTR’s designation letter places the responsibility for accounting for funds and
balances with the overseas controller, in this case USAID/Senegal’s office of financial
management. However, turnover in that office and the geographic separation from the program
made close monitoring difficult.

The financial management problems significantly inhibited program implementation. Without
immediate attention to the budget problems, it is unlikely that the program will achieve intended
outputs (e.g., number of people trained) or outcomes (e.g., building agricultural capacities). At
the time of the audit, the prime partner had frozen some activities because of pending questions
on budget realignment. For example, the partner had stopped issuing grants to beneficiary
farmers and organizations, which will be problematic because grant distribution needs to be
coordinated with the farming calendar in order for the funds to be useful. Since the audit, the
chief of party has continued to postpone recruitment of a new M&E officer because of the
budget problems, which will result in an accumulation of disorganized and unverified data. To
address these concerns, this audit makes the following recommendations.

   Recommendation 3. We recommend that USAID/Sierra Leone make a management
   decision on the allowability of the unapproved budget overruns of $794,664 and collect
   from the recipient any amounts determined to be unallowable.

Evaluation of Management Comments.                   USAID/Sierra Leone agreed with the
recommendation and reported that it is working with the regional agreement officer to reach a
decision by February 1, 2012. For recommendations with questioned costs, the mission must
determine the amounts allowable or unallowable in order to achieve a management decision.
Accordingly, a management decision will be reached on Recommendation 3 when the mission
provides its final determination on the questioned costs.

                                                                                               9
   Recommendation 4. We recommend that USAID/Sierra Leone make a management
   decision on the allowability of the ineligible and unsupported questioned costs totaling
   $71,776 identified in Table 2 and collect from the recipient any amounts determined to
   be unallowable.

Evaluation of Management Comments.                   USAID/Sierra Leone agreed with the
recommendation and reported that it is working with the regional agreement officer to reach a
decision by February 1, 2012. For recommendations with questioned costs, the mission must
determine the amounts allowable or unallowable in order to achieve a management decision.
Accordingly, a management decision will be reached on Recommendation 4 when the mission
provides its final determination on the questioned costs.

   Recommendation 5. We recommend that USAID/Sierra Leone work with the partner to
   develop and implement a plan to address the internal financial control weaknesses
   related to oversight and the segregation of duties.

Evaluation of Management Comments.                    USAID/Sierra Leone agreed with the
recommendation and has worked with the partner to develop and implement a plan to replace
the chief of party, hire a deputy, and hire a new financial manager. The partner has also agreed
to send its regional financial manager to Sierra Leone to implement key internal controls and aid
the transition of the new financial manager. The mission stated that it will continue to monitor
and work with the partner and expected these transitions to begin by December 31, 2011.
Accordingly, a management decision has been reached on Recommendation 5.

   Recommendation 6. We recommend that USAID/Sierra Leone work with the partner to
   develop and implement a financial plan to monitor program expenditures against the
   approved program budget quarterly.

Evaluation of Management Comments.                USAID/Sierra Leone agreed with the
recommendation and reported that the regional controller’s office will work with the new program
financial manager to suggest a new financial reporting format and recommend systems that
should be used to monitor expenditures on a quarterly basis. The mission’s target date for
completion is April 1, 2012. Accordingly, a management decision has been reached on
Recommendation 6.

   Recommendation 7. We recommend that USAID/Sierra Leone work with the partner to
   realign the work plan as a result of the budget shortage created by cost overruns.

Evaluation of Management Comments.                 USAID/Sierra Leone agreed with the
recommendation and reported that, working with the program manager, the AOTR will request
that the new chief of party develop an appropriately realigned work plan for FY 2012 that
accomplishes the key project targets without the funds spent on cost overruns. The mission’s
target date for completion is March 1, 2012. Accordingly, a management decision has been
reached on Recommendation 7.

   Recommendation 8. We recommend that USAID/Sierra Leone work with the partner to
   develop and implement a plan to improve cooperation among the coalition partners in a
   way that more closely reflects the intent of the cooperative agreement.

Evaluation of Management Comments.             USAID/Sierra Leone agreed with the
recommendation and reported that it will work with the new chief of party to review the

                                                                                              10
deficiencies of the current structure for project communication and reporting. The AOTR will
play an active monitoring role in meetings of the prime implementing partner and subpartners to
ensure that open communication is taking place. The mission’s target date for completion is
April 1, 2012. Accordingly, a management decision has been reached on Recommendation 8.

Partner Did Not Comply With Cost-
Sharing or Other Award
Requirements
USAID and ACDI/VOCA entered into a cooperative agreement on July 31, 2008, with total
funding of $13,244,003, to provide support for the program. According to the agreement,
ACDI/VOCA agreed to make cost-sharing contributions totaling $1,143,163 over the 4-year life
of the program. The agreement’s budget specified that contributions were to be largest in the
first year (about 72 percent of this amount) and less in the last 3 years, and that the cost share
would be in the form of in-kind contributions. The agreement also required a work plan outlining
the activities.

ACDI/VOCA did not meet the annual cost-sharing requirements stipulated in the agreement, nor
did it complete some activities in the FY 2010 work plan.

Cost Sharing. The cooperative agreement specified that ACDI/VOCA was to provide $822,276
in cost-sharing funds during the first year of implementation, followed by a little over $100,000
per year for each of the following 3 years to reach the total $1,143,163. The largest part of the
contribution was due in the first year to ensure that it maximized its effect on the program.
Unfortunately, ACDI/VOCA did not make the first year’s cost-sharing contribution. Furthermore,
at the time of the audit (the start of the program’s fourth and final year), the partner had provided
only $598,380. At this time, according to the schedule in the cooperative agreement,
ACDI/VOCA should have contributed at least $1,035,953, meaning that it was behind schedule
by $437,573. Moreover, the partner had only 1 year left to contribute the $544,783 necessary to
meet the life-of-program requirement.

This discrepancy occurred largely because of a lack of monitoring by both the implementing
partner and USAID. The AOTR was responsible for ensuring that ACDI/VOCA was making
progress toward meeting the cost-sharing requirement. The quarterly financial forms submitted
by the partner included an area to report cost-sharing contributions. The AOTR reported that he
was checking the cost-sharing contributions each quarter, but the mission and partner were
under the impression that the cost share was a life-of-program amount and that the partner was
not required to meet annual targets. This impression, which contributed to the cost-sharing
shortage, was the result of a contradiction in the cooperative agreement. One section of the
agreement implied that the partner was required to provide annual amounts in accordance with
the cost-sharing schedule, but a later section of the document implied that there was no annual
cost-sharing requirement, only a life-of-program requirement of $1,143,163. The partner’s
failure to provide the contribution on time will diminish its influence on the program.

Work Plan Activities. The partner did not complete activities under the FY 2010 work plan in
accordance with the requirements of the cooperative agreement. The audit team reviewed the
partner’s completion of nine “key outputs” in the agricultural productivity section of the work plan
and found that seven activities were not done, done late (in FY 2011), or reportedly done but not
supported, as indicated in Table 3.


                                                                                                  11
      Table 3. Program Work Plan for FY 2010: Key Agricultural Activities (audited)

                                     Activity                              Result
            25 innovation grants awarded to agribusinesses, market
                                                                           Not done
            associations, and communities
            4,500 individuals receive U.S. Government-supported
                                                                           Not supported
            short-term agricultural productivity training
            Memorandum of understanding with a civic society
            organization established for literacy and numeracy training    Done late
            to village savings and loans
            15 agribusinesses have been supported in business plan
                                                                           Done Late
            development
            Market intelligence units based in Freetown and Kenema
            gather market information on various value chains and          Not done
            disseminate this information to producers
            Advocacy plans and/or direct dialogue by producer groups
            with decision makers on policy issues/implementation           Not supported
            initiated with program support
            Women vegetable producers have initiated common
                                                                           Not done
            advocacy planning to obtain government quality certification

Although each incomplete task had a unique cause, some overarching factors significantly
affected the partner’s ability to complete the tasks and support their completion. First, delays
caused by disagreements among Government of Sierra Leone agencies and the slow pace of
working with local organizations were significant impediments. Second, the absence of the
M&E officer (described above) made it difficult for the program to provide support for many
reported results.

The failure to implement the activities as planned diminished the program’s ability to meet its
goals. For example, program officials planned to support private sector development efforts by
awarding innovation grants to help groups that produce emerging food commodities procure
capital items such as weighing and shipping equipment. Without this equipment, the
organizations’ ability to maximize production is limited, indirectly affecting the program goal of
increasing household incomes. Because each key work plan output is designed to help the
program achieve this goal, failing to accomplish them decreases the program’s ability to
succeed. To address these concerns, this audit makes the following recommendations.

   Recommendation 9. We recommend that USAID/Sierra Leone work with the partner to
   prepare and implement a plan to verify that the cost share reported is documented and
   allowable in accordance with the terms of this agreement.

Evaluation of Management Comments.                USAID/Sierra Leone agreed with the
recommendation and reported that it and the Regional Agreement Officer were actively working
with the partner on cost-sharing documentation and allowability to comply with the terms of the
agreement. The mission’s target date for completion is February 1, 2012. Accordingly, a
management decision has been reached on Recommendation 9.

   Recommendation 10. We recommend that USAID/Sierra Leone modify the Promoting
   Agriculture, Governance, and the Environment cooperative agreement to clarify whether
   the cost-sharing amount is to be provided in accordance with the annual schedule.



                                                                                               12
Evaluation of Management Comments.               USAID/Sierra Leone agreed with the
recommendation and reported that the Regional Agreement Officer will work with ACDI/VOCA
contracts staff to review and modify the cooperative agreement to clarify the cost-sharing
schedule for the remainder of the program. The mission’s target date for completion is April 1,
2012. Accordingly, a management decision has been reached on Recommendation 10.

   Recommendation 11. We recommend that USAID/Sierra Leone work with the partner
   to develop and implement a plan that requires the partner to reach the life-of-program
   cost-sharing requirement by the program’s end date.

Evaluation of Management Comments.                 USAID/Sierra Leone agreed with the
recommendation and reported that it will work with ACDI/VOCA to develop an appropriate cost-
sharing plan in order to meet the requirement by the program’s end date. The mission’s target
date for completion is February 1, 2012. Accordingly, a management decision has been
reached on Recommendation 11.

   Recommendation 12. We recommend that USAID/Sierra Leone work with the partner
   to determine and document essential activities that can be completed from the fiscal
   year 2010 work plan on a mutually agreed-upon schedule.

Evaluation of Management Comments.                  USAID/Sierra Leone agreed with the
recommendation and reported that it will work with the new chief of party to develop a work plan
that accomplishes the essential activities on a mutually agreed-upon schedule. The mission’s
target date for completion is March 1, 2012. Accordingly, a management decision has been
reached on Recommendation 12.

Program Did Not Comply With
Environmental Regulations
The Foreign Assistance Act of 1961, as amended, Section 117, requires that USAID consider
environmental impact and sustainability in designing and carrying out its development
programs. This requirement is codified in 22 CFR 216, which establishes several requirements,
including (1) assigning responsibilities within USAID for assessing the environmental impact of
its actions, (2) requiring that environmental safeguards be part of program planning and design,
and (3) directing that programs be continually monitored and modified when necessary to
mitigate environmental impact.

ADS requires the activity manager to ensure that the 22 CFR 216 requirements for an
environmental impact assessment have been met, approved in writing by the relevant bureau
environmental officer, and incorporated into the implementation instruments. According to
ADS 201.3.11.2, federal law mandates that the relevant bureau environmental officer must
complete and approve in writing an Initial Environmental Examination (IEE), Request for
Categorical Exclusion, Environmental Assessment, or other appropriate action under the USAID
Environmental Procedures promulgated in 22 CFR 216 before funds are obligated.

However, USAID/Sierra Leone did not obtain all necessary approvals of the IEE for its
agricultural activities, and the IEE was not prepared before program implementation. ARD, the
subpartner in charge of the environmental component, did not prepare the program IEE until
2011, more than 2 years into program implementation. Furthermore, at the time of the audit,
USAID’s regional environmental adviser had approved the IEE, but the bureau environmental

                                                                                             13
officer had not provided the final approval. In addition, environmental considerations and
required environmental language were not included in program documents, including the
ACDI/VOCA agreement and subagreements, as recommended in “Environmental Compliance:
Language for Use in Solicitations and Awards—An Additional Help for ADS Chapter 204.”

As a result, USAID/Sierra Leone did not follow USAID policies and procedures regarding
environmental compliance, and the mission’s activity managers and implementing partners may
not have been fully aware of their responsibilities regarding environmental compliance. The
AOTR was not familiar with all of the environmental requirements because he had never
received training on environmental compliance.            Moreover, the mission reported that
USAID/Sierra Leone’s position in the overall USAID mission structure contributed to delays in
obtaining final approval of the document. USAID/Sierra Leone is not considered a full mission
and is supervised by the mission director in Guinea; a contracting officer in Ghana; and the
controller’s office in Senegal, which manages the program’s finances through Guinea.
Coordinating all of these parties to review, finalize, and approve a document such as the IEE is
time-consuming. Not preparing the IEE on time increases the risks of implementing activities
that could be harmful to the environment. To address these concerns, this audit makes the
following recommendations.

   Recommendation 13. We recommend that USAID/Sierra Leone establish and
   implement policies mandating compliance with environmental requirements for its entire
   portfolio and communicate these requirements to its staff and implementing partners in
   writing.

Evaluation of Management Comments.                  USAID/Sierra Leone agreed with the
recommendation and reported that the environmental officer from USAID/Guinea will ensure
that environmental policies are updated and communicated to all staff and implementing
partners in writing. The mission’s target date for completion is March 1, 2012. Accordingly, a
management decision has been reached on Recommendation 13.

   Recommendation 14. We recommend that USAID/Sierra Leone require that all activity
   documents under the Promoting Agriculture, Governance, and the Environment Program
   be amended to incorporate appropriate language regarding environmental compliance
   and be approved by the appropriate officials.

Evaluation of Management Comments.                  USAID/Sierra Leone agreed with the
recommendation and reported that the AOTR will ensure that all activity documents under the
program are amended to reflect appropriate environmental compliance standards. The
mission’s target date for completion is March 1, 2012. Accordingly, a management decision has
been reached on Recommendation 14.




                                                                                             14
                                                                                         Appendix I



SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Dakar conducted this performance audit in accordance with
generally accepted government auditing standards.5 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions, in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis. The objective of the audit was to determine whether
USAID/Sierra Leone’s Promoting Agriculture, Governance, and the Environment Program was
on track to achieve its main goals related to building the capacities of targeted farmer, producer,
agribusiness, and marketing associations.

In planning and performing the audit, the audit team assessed management controls related to
management review, proper execution of transactions and events, and performance targets and
indicators. Specifically, we reviewed and evaluated the following:

	 FY 2009, 2010, and 2011 country operational plans and FY 2009 and 2010 performance
   plans and reports for USAID/Sierra Leone

	 Program work plans

	 Program agreements and subagreements

	 USAID and partner reports related to the program

	 Certification required under the Federal Managers’ Financial Integrity Act of 19826

	 USAID and implementing partner performance monitoring plans

	 Financial reports and supporting documentation

We interviewed key USAID/Sierra Leone and USAID/Senegal personnel, implementing partner
staff, and program beneficiaries. We conducted the audit at USAID/Sierra Leone in Freetown
and at the office and activity sites of the implementing partners in Freetown, Kailahun District,
and Kenema District. Audit fieldwork was conducted from October 3 to October 25, 2011. The
audit covered activities that took place in FYs 2009, 2010, and 2011.

As of October 25, 2011, USAID/Sierra Leone had obligated $13.2 million and disbursed
$10.2 million for the Promoting Agriculture, Governance, and the Environment Program, which
was USAID/Sierra Leone’s only agricultural program active during the period audited.




5
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).
6
    Public Law 97-255, as codified in 31 U.S.C. 3512.

                                                                                                15
                                                                                       Appendix I


Methodology
To answer the audit objective, we reviewed the implementation of agricultural activities for
compliance with the approved work plan, sufficient documentation, and timeliness. We also
reviewed agreements, progress reports, financial reports, and performance data of the
implementing partner. We reviewed applicable laws and regulations and USAID policies and
procedures pertaining to USAID/Sierra Leone’s agricultural activities, including annual
certification required under the Federal Managers’ Financial Integrity Act of 1982, ADS Chapters
202 and 203, program-specific regulations, and supplemental ADS guidance.

We interviewed program and financial staff at USAID/Sierra Leone and USAID/Senegal, as well
as staff at the implementing partners’ offices in Freetown, Kailahun, and Kenema.

Because our audit planning included discussions with USAID’s Office of Financial Management,
and these discussions revealed concerns about the implementing partner’s internal controls, we
extended audit procedures to include a review of disbursements made by the implementing
partner.

We also performed site visits in the Kailahun and Kenema Districts of Sierra Leone to observe
program implementation; verify reported results; and meet volunteers, implementers, and
beneficiaries. During these site visits, we observed facilities benefiting from the technical
assistance, interviewed individuals who were conducting activities, and interviewed program
beneficiaries. The sample of sites visited consisted of activities that were (1) in progress during
the time of our fieldwork, (2) located in areas where key program activities were being
implemented, (3) accessible given audit time restrictions, and (4) representative of the activities
being implemented. The results from the sample cannot be projected to the universe of all
activities on a statistical basis. However, we believe that our work provides a reasonable basis
for our conclusions.




                                                                                                16
                                                                                                       Appendix II



MANAGEMENT COMMENTS 


December 9, 2011 
 
MEMORANDUM  
 
TO:	          Gerald Custer, Regional Inspector General (RIG)/Dakar   
 
FROM:	        Nancy Estes, Mission Director, USAID/Guinea & Sierra Leone   
              Jean Benedict, Country Program Manager, USAID/Sierra Leone 
 
SUBJECT:	     Management Responses to RIG/Dakar Draft Report on Audit of USAID/Sierra Leone’s 
              Agricultural Activities (Report No. 7‐636‐12‐00X‐P) 
 

On  November  9,  2011,  the  USAID/Sierra  Leone  received  the  draft  report  on  the  subject  audit.    We 
appreciate  the  draft  audit  report  which  contains  14  recommendations  to  strengthen  the  systems  and 
procedures  in  implementing  and  monitoring  this  challenging  program  in  Sierra  Leone.    USAID  also 
appreciates  RIG’s  support  to  fully  address  specific  issues  identified  during  our  financial  review.    The 
Mission  has  already  taken  significant  actions  for  each  of  the  recommendations  in  addition  to  our  plans 
to  address  these  items  going  forward.    In  addition,  we  are  requesting  that  management  decisions  be 
issued  for  11  recommendations  and  closure  for  one  of  the  recommendations for  actions recently taken.  
Details are as follows.      

Overall,  USAID  would  like  to  underscore  the  positive  progress  the  Promoting  Agriculture,  Governance, 
and  the  Environment  (PAGE)  program  has  made  toward  meeting  targeted  results  and  the  benefit  it  has 
provided  toward  Sierra  Leone’s  development.  It  is  also  important  to  note  the  special  circumstances  in 
which  US  Government  staff  and  partners  have  worked  since  2008.  The  PAGE  program  in  Sierra  Leone 
operates  in  a  USAID  limited  presence  country.  Its  twinning  mission,  USAID/Guinea,  provides  additional 
support  and  oversight.  During  the  course  of  the  program  USAID/Guinea  experienced  a  prolonged 
ordered  departure  evacuation  due  to  violence  and  unrest.  Despite  these  constraints,  USAID  staff  based 
in  Sierra  Leone  worked  closely  with  the  implementing  partners  to  monitor  program  activities  and  to 
improve procedures when they were deficient.   

In  providing  our  responses  to  the  audit  recommendations,  USAID  must  also  underscore  that  there  are 
limitations  as  to  how  involved  USAID  can  be  with  a  partner  operating  under  a  cooperative  agreement 
per  the  regulations.  There  are  also  limitations  on  the  level  of  programmatic  and  staffing  changes  that 
USAID  can  realistically  ask  the  partner  to  make  considering  the  remaining  time  of  the  activity.  Having 
said this, the following is our response to the audit recommendations: 

 

 


                                                                                                                  17
                                                                                                            Appendix II


 

 
Management Comments – Audit of USAID/Sierra Leone Agricultural Activities 
 
Recommendation  #1:  Work  with  the  partner  to  develop  and  implement  a  plan  to  measure  the 
program’s impact on targeted areas by rebuilding a baseline from available data and using specific proxy 
indicators to determine the change in income levels from the onset of the program (page 5). 
 
USAID/Sierra  Leone  concurs  with  this  recommendation  and  request  that  a  management  decision  be 
issued  in  the  final  audit  report.    The  Mission  will  work  with  the  ACDI  regional  M&E  representative  to 
develop  a  plan  to  measure  the  program’s  impact  on  targeted  areas  by  rebuilding  a  baseline  from 
available  data  and  using  specific  proxy  indicators  to  determine  the  change  in  income  levels  from  the 
onset  of  the  program.    ACDI  has  indicated  in  their  corrective  action  plan  submitted  to  the  Mission  on 
November 23rd that they will send a regional M&E Specialist to Freetown beginning the week of January 
16th  to  assist  in  collecting  the  necessary  data  in  order  to  create  a  meaningful  baseline  survey.   ACDI  has 
indicated  that  this  person  will  remain  in  country  as  long  as  needed.    Furthermore,  USAID/Guinea  has 
hired  a  new  DLI  Economist  who  will  begin  in  January.    This  officer  will  assist  in  overseeing  the  PAGE 
baseline  exercise  and  work  with  ACDI  to  ensure  that  the  baseline  data  is  appropriately  collected  and 
assimilated.    The  AOTR  will  also  include  this  activity  as  part  of  his  oversight  mandate.    The  target 
completion date for this activity is April 1, 2012. 
 
 
Recommendation  #2:  Work  with  the  partner  to  develop  and  implement  a  plan  to  ensure  that 
performance data is organized, supported, and verifiable (page 5). 
 
USAID/Sierra  Leone  concurs  with  this  recommendation  and  request  that  a  management  decision  be 
issued in the final audit report.  The Mission will work with the partner to develop and implement a plan 
to  ensure  that  performance  data  is  organized,  supported,  and  verifiable.  In  addition,  the  Mission  will 
request  that  ACDI  provide  a  full‐time  M&E  specialist  to  follow  up  the  baseline  survey  data  after  the  TDY 
visit  of  the  regional  ACDI  M&E  representative.   If  funds  are  not  available  for  this  position,  the  Mission 
recommends  that  ACDI  fund  this  position  as  part  of  its  unmet  cost  share  requirement.   These  activities 
will  be  overseen  by  the  AOTR  and  the  new  DLI  Economist  with  a  targeted  completion  date  of  March  1, 
2012.   
 
 
Recommendation  #3:  Make  a  management  decision  on  the  allowability  of  the  unapproved  budget 
overruns  of  $794,664  and  collect  from  the  recipient  any  amounts  determined  to  be  unallowable  (page 
9). 
 
USAID/Sierra  Leone  is  actively  working  with  the  Regional  Agreement  Officer  concerning  this 
recommendation. Targeted date for decision from the Regional Agreement Officer is February 1, 2012. 
At  the  same  time,  to  improve  financial  oversight  and  control,  the  Mission  has  worked  with  the  partner 
to  hire  a  new  financial  manager  and  send  its  regional  financial  manager  to  Sierra  Leone  to  address 
immediate  concerns.  The  Mission  and  the  Financial  Management  Office  will  continue  to  work  with  the 
partner to resolve budgetary and financial issues.  
 
 

                                                                                                                        18
                                                                                                           Appendix II


Recommendation  #4:    Make  a  management  decision  on  the  allowability  of  the  ineligible  and 
unsupported  questioned  costs  totaling  $71,776  identified  in  Table  2  and  collect  from  the  recipient  any 
amounts determined to be unallowable (page 9). 
 
USAID/Sierra  Leone  is  actively  working  with  the  Regional  Agreement  Officer  concerning  this 
recommendation. Targeted date for decision from the Regional Agreement Officer is February 1, 2012. 
 
 
Recommendation  #5:  Work  with  the  partner  to  develop  and  implement  a  plan  to  address  the  internal 
financial control weaknesses related to oversight and the segregation of duties (page 9). 
 
USAID/Sierra Leone concurs with this recommendation and has worked with the partner to develop and 
implement  a plan  to  replace  the  existing  Chief  of  Party,  hire  a  deputy,  and  hire  a  new  financial  manager 
in  order  to  address  the  internal  financial  control  weaknesses  and  improve  segregation  of  duties.  The 
partner has also agreed to send its regional financial manager to Sierra Leone to implement key internal 
controls  and  aid  the  transition  of  the  new  financial  manager.  These  actions  were  proposed  in 
ACDI/VOCA’s  Corrective  Action  Plan  dated  November  23,  2011  (attached)  and  have  been  approved  by 
the  Mission.  The  Mission  will  continue  to  monitor  this  plan  and  work  with  the  partner  as  these 
transitions take place starting in December 2011.    
 
In  that  regard,  we  kindly  request  that  Recommendation  #5  be  closed  upon  issuance  of  the  final  audit 
report. 
 
 
Recommendation  #6:  Work  with  the  partner  to  develop  and  implement  a  financial  plan  to  monitor 
program expenditures against the approved program budget on a quarterly basis (page 9). 
 
USAID/Sierra  Leone  concurs  with  this  recommendation  and  request  that  a  management  decision  be 
issued  in  the  final  audit  report.    The  Mission  will  work  with  the  USAID/Senegal  Regional  Controller’s 
Office  to  conduct  a  field  visit  to  Freetown  to  coincide  with  the  visit  of  ADCI’s  Regional  Financial 
Manager,  who  plans  to  come  to  Freetown  the  week  of  January  16,  2012  to  work  with  the  new 
ACDI/PAGE  Financial  Manager.    The  Regional  Controller’s  Office  will  work  with  the  new  PAGE  Financial 
Manager to suggest a new financial reporting format and recommended systems that should be used to 
monitor expenditures on a quarterly basis.  The target completion date for this activity is April 1, 2012. 
 
 
Recommendation  #7:  Work  with  the  partner  to  realign  the  work  plan  appropriately  as  a  result  of  the 
budget shortage created by cost overruns (page 10). 
 
USAID/Sierra  Leone  concurs  with  this  recommendation  and  request  that  a  management  decision  be 
issued  in  the  final  audit  report.      Working  with  the  Program  Manager,  the  AOTR  will  request  that  the 
new  PAGE  Chief  of  Party  develop  an  appropriately  realigned  work  plan  for  FY11‐12  that  accomplishes 
the  key  project  targets  without  the  funds  which  were  spent  on  cost  overruns.    The  target  completion 
date for this activity is March 1, 2012. 
 
 



                                                                                                                      19
                                                                                                         Appendix II


Recommendation  #8:  Work  with  the  partner  to  develop  and  implement  a  plan  to  improve  cooperation 
among the coalition partners in a way that more closely reflects the intent of the cooperative agreement 
(page 10). 
 
USAID/Sierra  Leone  concurs  with  this  recommendation  and  request  that  a  management  decision  be 
issued  in  the  final  audit  report      The  Mission  will  work  with  the  new  Chief  of  Party  to  review  the 
deficiencies  of  the  current  project  communication  and  reporting  structure.    The  team  will  make 
recommendations to reconstitute the Board of Directors, which met infrequently over the last year.  The 
AOTR  will  play  an  active  monitoring  role  in  prime  and  sub‐partner  meetings  to  ensure  that  open 
communication  is  taking  place  and  that  there  are  no  operational  bottlenecks.    The  target  completion 
date for this activity is April 1, 2012. 
 
 
Recommendation  #9:  Work  with  ACDI/VOCA  to  prepare  and  implement  a  plan  to  ensure  cost  share 
reported is documented and allowable as per the terms of this agreement (page 11). 
 
USAID/Sierra  Leone  concurs  with  this  recommendation  and  request  that  a  management  decision  be 
issued  in  the  final  audit  report.   The  Mission  and  the  Regional  Agreement  Officer  are  actively  working 
with  the  partner  regarding  cost  share  documentation  and  allowability  to  comply  with  the  term  of  the 
agreement. Targeted date for completion is February 1, 2012. 
 
 
Recommendation  #10:  Modify  the  Promoting  Agriculture,  Governance,  and  the  Environment 
cooperative  agreement  to  clarify  whether  the  cost  sharing  amount  is  to  be  provided  in  accordance  with 
the annual schedule (page 12). 
 
USAID/Sierra  Leone  concurs  with  this  recommendation  and  request  that  a  management  decision  be 
issued  in  the  final  audit  report.  The  Regional  Agreement  Officer  will  work  with  ACDI  contracts  staff  to 
review  and  modify  the  cooperative  agreement  to  appropriately  reflect  the  cost  share  schedule  for  the 
remainder of the program.  This action should be finalized by April 1, 2012.   
 
 
Recommendation  #11:  Work  with  the  partner  to  develop  and  implement  a  plan  that  requires  them  to 
reach the life of program cost sharing requirement by the program's end date (page 12). 
 
USAID/Sierra  Leone  concurs  with  this  recommendation  and  request  that  a  management  decision  be 
issued  in  the  final  audit  report.    The  Mission  will  work  with  ACDI’s  Senior  Manager  of  Community 
Development  to  develop  an  appropriate  cost  share  plan  in  order  to  meet  the  partner’s  cost  sharing 
requirement  by  the  program’s  end  date.    The  Senior  Manager  of  Community  Development  is  listed  in 
the  PAGE  corrective  action  plan  submitted  November  23rd  and  this  individual  will  work  to  enhance 
communication  between  ACDI  and  the  Regional  Agreement  Officer.        The  target  completion  date  for 
this activity is February 1, 2012. 
 
 
Recommendation  #12:   Work  with  the  partner  to  determine  and  document  essential  activities  that  can 
be completed from the FY 2010 work plan on a mutually agreed upon time schedule (page 12). 
 


                                                                                                                    20
                                                                                                              Appendix II


USAID/Sierra  Leone  concurs  with  this  recommendation  concurs  with  this  recommendation  and  request 
that  a  management  decision  be  issued  in  the  final  audit  report.      The  Mission  will  work  with  the  new 
PAGE  Chief  of  Party  to  develop  an  appropriately  realigned  work  plan  that  accomplishes  the  essential 
activities on a mutually agreed upon time schedule.  The target completion date for this activity is March 
1, 2012. 
 
 
Recommendation  #13:  Establish  and  implement  policies  mandating  compliance  with  environmental 
requirements for its entire portfolio and communicate these requirements to its staff and implementing 
partners in writing (page 13). 
 
USAID/Sierra  Leone  concurs  with  this  recommendation  and  request  that  a  management  decision  be 
issued  in  the  final  audit  report.  The  Mission  has  included  the  environmental  officer  from  USAID/Guinea 
on  the  final  quarterly  field  visit  to  the  PAGE  project  sites  in  Sierra  Leone.    The  officer  will  ensure  that 
environmental policies are updated and communicated to all staff and implementing partners in writing.  
The target completion date for this activity is March 1, 2012. 
 
 
Recommendation  #14:    Require  that  all  activity  documents  under  the  Promoting  Agriculture, 
Governance, and the Environment Program are amended to incorporate appropriate language regarding 
environmental compliance and are approved by the appropriate officials (page 13). 
 
USAID/Sierra  Leone  concurs  with  this  recommendation  and  request  that  a  management  decision  be 
issued  in  the  final  audit  report.   At  present,  the  environmental  officer  from  USAID/Guinea  is  a  member 
of  the  assessment  team  on  the  final  quarterly  field  visit  to  the  PAGE  project  sites  in  Sierra  Leone.   The 
AOTR  will  ensure  that  all  activity  documents  under  the  PAGE  program  are  amended  to  reflect 
appropriate  environmental  compliance  standards  as  reviewed  by  the  environmental  officer.   The  target 
completion date for this activity is March 1, 2012. 
 
           




                                                                                                                          21
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
